HHS/OIG-Audit--"Review of Outpatient Therapy Services at Life Care Centers of America Skilled Nursing Facilities in Tennessee,"(A-04-97-02143)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Therapy Services at Life Care Centers of America Skilled Nursing Facilities in Tennessee," (A-04-97-02143)
December 30, 1999
Complete
Text of Report is available in PDF format (975 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the 12-month period ended June 30, 1997, we estimate that Life Care's Tennessee skilled nursing facilities were paid
approximately $1.6 million in Medicare Part B outpatient therapy services that did not meet Medicare requirements. Medicare
requires that therapy services be reasonable and necessary, and be adequately supported with medical documentation. A statistical
sample of therapy services revealed that 59 of the 105 therapy services in our sample were not reasonable and necessary
or lacked adequate medical documentation to support the services claimed. The services were not reasonable and necessary
because: (1) the level of services rendered did not require a qualified therapist; (2) the beneficiary's condition was
not expected to improve materially in a reasonable time; and (3) the amount, frequency, and duration of services were excessive.
In addition, the medical records were not specific, adequate and complete to support the services claimed. We believe that
Life Care claimed inappropriate services because it did not ensure that the therapy services were billed in accordance
with Medicare's reimbursement requirements.